                       U.S. Department of Agriculture

                          Office of Inspector General
                                     Northeast Region




              Audit Report

Food and Nutrition Service National Office
 Oversight of Electronic Benefits Transfer
                Operations




                             Report No. 27099-66-Hy
                                    September 2006
                      UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250




September 28, 2006

REPLY TO
ATTN OF:      27099-66-Hy


TO:           Roberto Salazar
              Administrator
              Food and Nutrition Service

ATTN:         Lael Lubing
              Director
              Grants Management Division

FROM:         Robert W. Young /s/
              Assistant Inspector General
                for Audit

SUBJECT:      Food and Nutrition Service National Office Oversight of Electronic Benefits
              Transfer Operations


This report presents the results of our audit of the Food and Nutrition Service’s National Office
Oversight of Electronic Benefits Transfer Operations. Your response to the official draft, dated
September 28, 2006, is included as exhibit D. Excerpts of your response and the Office of
Inspector General’s position are incorporated into the Findings and Recommendations section of
the report. Based on your response, we were able to reach management decision on
Recommendations 1 and 2. Please follow your agency’s internal procedures in forwarding
documentation for final action to the Office of the Chief Financial Officer. Management
decision for Recommendation 3 can be reached once you have provided us with the additional
information outlined in the report section, OIG Position.

In accordance with Department Regulation 1720-1, please furnish a reply within 60 days
describing the planned corrective action and the timeframe for implementing it for
Recommendation 3. Please note that regulation requires management decision to be reached on
all findings and recommendations within 6 months from report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
Food and Nutrition Service National Office Oversight of Electronic Benefits
Transfer Operations (Audit Report No. 27099-66-Hy)


Results in Brief                     The Food Stamp Act of 1977, Public Law 88-525, authorized the Food
                                     and Nutrition Service (FNS) to experiment with alternative methods for
                                     the delivery of Food Stamp Program (FSP) benefits using electronic data
                                     processing and computer technology. With this authorization, FNS
                                     allowed State agencies to begin issuing FSP benefits using an Electronic
                                     Benefits Transfer (EBT) system. EBT is an electronic system that allows
                                     a recipient to authorize transfer of their government benefits from a
                                     Federal account to a retailer account to pay for products received. EBT
                                     has been implemented in all States since June 2004.

                                     The Office of Inspector General (OIG) has monitored and audited
                                     implementation of EBT by FNS and States since its inception. We last
                                     issued a report on FNS national office oversight of EBT in
                                     January 2001. The objectives of this audit were to determine whether the
                                     FNS’ corrective actions taken in response to prior EBT
                                     recommendations were adequate; whether FNS-approved waivers and
                                     EBT program changes made since our last audit were reasonable,
                                     properly implemented, and did not adversely affect EBT operations; and
                                     if oversight, related to EBT, was adequate.

                                     We concluded that FNS’ oversight of EBT operations was generally
                                     adequate. For example, we found that FNS-approved waivers and
                                     changes to the EBT program were reasonable, properly implemented,
                                     and did not adversely affect operations. EBT waivers relinquish rights
                                     given to EBT participants as prescribed in regulations. 1 These waivers
                                     cannot adversely affect the program or recipients nor can they increase
                                     the Federal cost of FSP EBT. In addition, FNS successfully
                                     implemented sections of the Farm Security and Rural Investment Act of
                                     2002 related to EBT. Implementation of these sections was designed to
                                     help effectively deliver FSP benefits to clients when disasters occur,
                                     enhance current EBT issuance systems, increase FNS’ controls over
                                     redemption, and increase FNS’ flexibility to notify retailers of adverse
                                     actions. The national and Regional offices established appropriate roles,
                                     responsibilities, and lines of communication for oversight of EBT
                                     operations. However, despite FNS requirements to safeguard EBT
                                     systems, inadequate control over EBT system access by state agencies
                                     (e.g., improper use of user identification) remains a problem in the FSP.
                                     We also identified EBT trafficking, 2 through the illegal and

1
    Title 7 Code of Federal Regulations (C.F.R.) 274.12 January 1, 2005 and Title 7 C.F.R. 277.18 January 1, 2005.
2
    Individuals illegally selling their food benefits for cash.

USDA/OIG-AUDIT No. 27099-66-Hy                                                                                       Page i
                                     unauthorized use of point of sale (POS) equipment as another weakness
                                     in the FSP.

                                     In response to our prior recommendations, 3 FNS agreed to strengthen
                                     procedures for reviewing and controlling access to State EBT systems.
                                     FNS directed States to conduct semiannual reviews of employee access
                                     and discussed the importance of these access reviews at EBT meetings
                                     in 2001. However, FNS does not independently confirm that States
                                     adequately controlled access to their EBT systems. As a result,
                                     unauthorized access to FSP benefits may not always be prevented or
                                     detected. We found system access deficiencies in seven State audits
                                     since the issuance of the last nationwide audit in January 2001. The
                                     scope of four of these audits (Texas, Michigan, New Mexico, and New
                                     Jersey) was subsequent to FNS’ implementation of corrective actions
                                     agreed to in the 2001 audit.

                                     Also, unscrupulous retailers have managed to circumvent the EBT
                                     security controls by fraudulently obtaining new equipment and/or
                                     illegally removing and using existing machines in unauthorized
                                     locations. Retailers obtained the new equipment by misrepresenting the
                                     need for replacement. This occurred because POS replacement
                                     procedures were inadequate to prevent certain retailers from fraudulently
                                     obtaining new POS equipment. Also, States were not required to
                                     consider including, in their Request for Proposal (RFP) to acquire EBT
                                     systems, equipment functionality and/or technological specifications that
                                     could prevent the illegal removal and unauthorized use of existing EBT
                                     POS equipment. As a result, the illegal and unauthorized use of EBT
                                     POS equipment impairs the integrity of the FSP.

Recommendations
In Brief                             We recommend that FNS require the Regional offices to revise their
                                     management evaluations of State EBT operations to include tests to
                                     determine if the States conducted proper system access reviews. We also
                                     recommend that FNS require States to implement, via the EBT contract,
                                     a formal process for use during EBT POS equipment replacement that
                                     would prevent retailers from fraudulently obtaining equipment. In
                                     addition, require States to consider including in their RFP to acquire
                                     EBT systems, requests for POS equipment functionality and/or
                                     technological specifications that could prevent the illegal removal and
                                     unauthorized use of the devices. 4




3
    Monitoring of the EBT System Development and Implementation, Evaluation Report No. 27801-03-Hy, September 1996 and FNS EBT
    System National Office Oversight, Audit Report No. 27099-11-Hy, January 2001.
4
    FNS will not require this action via Federal regulations, however, as the final authority FNS’ approval will depend on the State’s consideration
    of fraud and theft controls during the RFP process.

USDA/OIG-AUDIT No. 27099-66-Hy                                                                                                                     Page ii
Agency Response   FNS agreed to all three report recommendations. We have incorporated
                  FNS’ response in the Findings and Recommendations section of this
                  report, along with the OIG position. FNS’ response is included as
                  Exhibit D.

OIG Position      Based on FNS’ response, we were able to reach management decision
                  on Recommendations 1 and 2. Management decision on
                  Recommendation 3 can be reached once FNS has provided us with the
                  additional information outlined in the report section, OIG Position.




USDA/OIG-AUDIT No. 27099-66-Hy                                                      Page iii
Abbreviations Used in This Report

ADHS           Arkansas Department of Human Services

ALERT          Anti-fraud Locator using EBT Retailer Transactions

C.F.R.         Code of Federal Regulations

EBT            Electronic Benefits Transfer

EFS            Electronic Financial Services

FNS            Food and Nutrition Service

FSP            Food Stamp Program

FY             Fiscal Year

ID             Identification

ME             Management Evaluation

OIG            Office of Inspector General

OTDA           Office of Temporary and Disability Assistance

POS            Point of Sale

P.L.           Public Law

RFP            Request for Proposal

USDA           U.S. Department of Agriculture

WIC            Special Supplemental Program for Women, Infants and Children




USDA/OIG-AUDIT No. 27099-66-Hy                                                Page iv
Table of Contents
Executive Summary ....................................................................................................................... i

Abbreviations Used in This Report ............................................................................................ iv

Background and Objectives ......................................................................................................... 1

Findings and Recommendations.................................................................................................. 4

Section 1. EBT System Access Controls Continue to Need Strengthening.............................. 4

                                    Recommendation 1 ................................................................................ 5

Section 2. Controls to Safeguard EBT POS Equipment Need Strengthening......................... 7

                                    Recommendation 2 ................................................................................ 9
                                    Recommendation 3 ................................................................................ 9

Scope and Methodology.............................................................................................................. 11

Exhibit A – EBT Coalitions and Alliances............................................................................... 13
Exhibit B – Prior OIG Audits ................................................................................................... 14
Exhibit C – OIG Audit Recommendations............................................................................... 15
Exhibit D – Agency Response .................................................................................................... 21
Glossary of Terms ....................................................................................................................... 23




USDA/OIG-AUDIT No. 27099-66-Hy                                                                                                             Page v
Background and Objectives
Background                             The U.S. Department of Agriculture’s (USDA) Food and Nutrition
                                       Service (FNS) administers the Food Stamp Program (FSP) which
                                       assists low-income households by increasing their ability to purchase
                                       food. Once a month, each participating household receives a benefit
                                       allotment determined by the number of individuals in the family,
                                       household income, and other related factors. Recipients can use the
                                       benefits to pay for food items at participating food retailers.

                                       The Food Stamp Act of 1977, Public Law (P.L.) 88-525, authorized
                                       FNS to experiment with alternative methods for the delivery of FSP
                                       benefits using electronic data processing and computer technology.
                                       With this authorization, FNS allowed State agencies to begin issuing
                                       FSP benefits using an Electronic Benefits Transfer (EBT) system. The
                                       Personal Responsibility and Work Opportunity Reconciliation Act of
                                       1996, P.L. 104-193, provided that all States 5 must implement EBT
                                       systems before October 1, 2002, unless the requirement was waived.
                                       Additionally, the EBT Interoperability and Portability Act of
                                       2000 mandated cost-effective portability of food stamp benefits across
                                       State borders by October 1, 2002.

                                       The FSP is administered by FNS through a Federal-State partnership.
                                       The Federal Government pays the full cost of recipient benefits and
                                       shares the cost to administer the FSP with the States. Congress funds
                                       the FSP through direct appropriation. In Fiscal Year (FY) 2005, nearly
                                       $29 billion in FSP benefits were issued through EBT systems.

                                       Before EBT, the basic method of FSP benefit delivery was the food
                                       stamp coupon. EBT was developed to replace paper coupons with an
                                       electronic system. EBT systems provide computerized delivery of FSP
                                       benefits. Using plastic cards, much like a debit card along with a
                                       Personal Identification Number, recipients gain access to benefits
                                       through point of sale (POS) terminals located at approved food
                                       retailers.

                                       FNS has established approval rules for the delivery of FSP benefits
                                       using EBT systems in Title 7 Code of Federal Regulations (C.F.R.) §
                                       274.12, dated January 1, 2005, and for approving automated data
                                       processing systems in Title 7 C.F.R. § 277.18, dated January 1, 2005.
                                       FNS has issued a policy on the approval requirements for State
                                       development and implementation of EBT systems for the Women,


5
    For purposes in this report, “States” will refer to all 50 U.S. States, Guam, Puerto Rico, Virgin Islands, and Washington D.C.

USDA/OIG-AUDIT No. 27099-66-Hy                                                                                                       Page 1
                                   Infants and Children (WIC) program, 6 but no specific regulations have
                                   been established for the delivery of WIC benefits using EBT systems.
                                   The FSP regulations specify functional areas to be addressed by the
                                   State agency but do not establish a standardized system of internal
                                   controls. FNS' policy is to allow the States the flexibility to establish
                                   control systems that meet the needs of the individual States.

                                   Generally, States award contracts to private sector companies to
                                   develop and operate their EBT systems. These companies are usually
                                   financial institutions or other organizations that already handle debit
                                   and credit card systems or electronic funds transfer activities.
                                   However, the States remain financially liable to the Federal
                                   Government for actions of their EBT processors. As of
                                   February 2006, there were five prime EBT contractors plus three States
                                   who were acting as their own prime contractor. A prime contractor is
                                   the contractor selected by the State to oversee all EBT functions;
                                   however, the EBT processing function may be performed by another
                                   entity. Nearly two-thirds of all States have selected the same prime
                                   contractor, JP Morgan Electronic Financial Services (EFS).
                                   Additionally, there are four EBT coalitions/alliances, with 27 States
                                   participating (See Exhibit A). Coalitions provide the States with a
                                   number of advantages including allowing smaller States to gain a better
                                   negotiating position by combining with larger States to obtain contract
                                   prices and options, and the ability to share concerns, problems,
                                   solutions, lessons learned, etc.,.

                                   The FNS National office is responsible for establishing all EBT policies
                                   and approving EBT system designs and EBT contracts. It maintains
                                   open communications with the States and the regional offices, monitors
                                   the financial reconciliation activity of the States, aids the Regional
                                   offices in crisis situations concerning daily EBT operations, responds to
                                   Congressional inquiries and letters and Web inquiries from the public,
                                   drafts guidance and regulations, and continues to develop the
                                   Anti-Fraud Locator using EBT Retailer Transactions (ALERT) system.

                                   The seven Regional offices conduct management evaluations to ensure
                                   State compliance with Federal regulations and handle daily concerns
                                   arising from EBT operations at the State level.

                                   The FNS national office and Regional offices share other
                                   responsibilities. They both ensure free and open competition among
                                   vendors, review all appropriate records pertaining to State EBT
                                   contracts, review test scripts and design documents for launch of a new
                                   system, attend national EBT conferences and workgroups, ensure that

6
    Functional Requirements Document for a Model WIC System.

USDA/OIG-AUDIT No. 27099-66-Hy                                                                             Page 2
                                        State limits on EBT-FSP funds are not exceeded, and continue
                                        development and monitoring of the Watch List. 7

Objectives                              The objectives of the audit were to determine whether: (1) actions taken
                                        by FNS on prior nationwide EBT recommendations were adequate,
                                        (2) FNS-approved waivers were reasonable and did not adversely affect
                                        EBT operations, (3) necessary changes to FNS regulations, policies,
                                        and forms have been completed and did not adversely affect EBT and
                                        non-EBT FSP operations, and (4) FNS national and Regional offices
                                        oversight, related to EBT, was adequate.

                                       To accomplish these objectives, we reviewed 20 prior EBT audit
                                       recommendations, reviewed all current EBT waivers, interviewed
                                       pertinent FNS officials to receive information about changes in policies
                                       and procedures, and reviewed documents and conducted meetings with
                                       FNS officials to determine the adequacy of national office oversight.




7
    A list of firms that may be violating the FSP.

USDA/OIG-AUDIT No. 27099-66-Hy                                                                                 Page 3
Findings and Recommendations
Section 1. EBT System Access Controls Continue to Need Strengthening


Finding 1                             In response to our prior recommendations, 8 FNS agreed to strengthen
                                      procedures for reviewing and controlling access to State EBT systems.
                                      For example, FNS directed States to conduct semiannual reviews of
                                      employee access and discussed the importance of these access reviews
                                      at EBT meetings in 2001. 9 These actions were not effective because
                                      FNS does not independently confirm that States adequately controlled
                                      access to their EBT systems. We identified weaknesses in controls
                                      over EBT system access in four States (i.e., Texas, Michigan, New
                                      Mexico, and New Jersey) subsequent to FNS’ implementation of
                                      corrective actions. Accordingly, unauthorized access to FSP benefits
                                      may not be prevented or detected.

                                      Federal regulations require States to protect the EBT system from theft
                                      and unauthorized use 10 and also require States to conduct security
                                      reviews of EBT systems on a biennial basis. 11 Although, FSP
                                      regulations specify functional areas to be addressed, it is FNS’ policy
                                      to allow States to develop specific controls to meet their needs.

                                      We first reported that EBT system access procedures needed
                                      strengthening in our 1996 report. In response, FNS proposed to
                                      emphasize the importance of security in EBT systems to all States.

                                      In January 2001, we reported that FNS’ corrective actions were not
                                      sufficiently effective to address this system control weakness. We
                                      recommended that FNS require States to periodically review system
                                      access to identify individuals who no longer need access and to
                                      immediately delete their access. FNS did not concur with this
                                      recommendation. FNS did not believe regulating down to the level of
                                      periodic log-on identification (ID) reviews was necessary or
                                      appropriate. FNS instead proposed to write individually to State EBT
                                      managers directing them to tighten existing controls over EBT access
                                      by conducting semiannual reviews of employees with EBT access to
                                      determine if such access continued to be needed. In addition, FNS
                                      advised EBT managers to consult with their security managers about
                                      access reviews, added periodic access reviews as an agenda item for
                                      their January 2001 Regional EBT Coordinator conference call, and had

8
     Monitoring of the EBT System Development and Implementation, Evaluation Report No. 27801-03-Hy, September 1996 and FNS EBT
     System National Office Oversight, Audit Report No. 27099-11-Hy, January 2001.
9
     These meetings included FNS’ January 2001 Regional EBT Coordinator conference call and Regional EBT user group meetings held in 2001.
10
     Title 7 C.F.R. 274.12(i) (3)(v)(A) January 1, 2005 and Title 7 C.F.R. 277.18 (p) (2) (ii) (B) January 1, 2005.
11
     Title 7 C.F.R. 277.18 (p) (3) January 1, 2005.

USDA/OIG-AUDIT No. 27099-66-Hy                                                                                                           Page 4
                    the coordinators add this issue to all Regional EBT user’s group
                    meetings held in 2001.

                    The Office of Inspector General (OIG) performed 10 audits of State
                    EBT systems since the release of the previous national oversight audit
                    report in January 2001 (See Exhibit B). Seven of these audits
                    (Washington D.C., New York, Arkansas, Michigan, Texas, New
                    Mexico, and New Jersey) disclosed weaknesses in controls over EBT
                    system access. Of these seven audits, four audits (Texas, Michigan,
                    New Mexico, and New Jersey) disclosed weaknesses in controls over
                    EBT system access and the scope of the review was subsequent to the
                    June 2001 date when FNS reported that it had fully implemented
                    actions to address the recommendations in our January 2001 report.
                    These audits disclosed the following:

                       •   Texas did not document requests for access to the EBT system
                           nor did it conduct periodic reviews to determine if access
                           granted to users remained appropriate.

                       •   In Michigan, FSP caseworkers had unlimited access to the EBT
                           issuance system and could independently change benefits for a
                           recipient.

                       •   New Jersey had no policies and procedures for removing
                           system access for employees who have terminated employment
                           or for employees who no longer had a continuing need for
                           access.

                       •   In New Mexico, some employees had the capability to access
                           EBT systems that allow both the issuance of EBT benefits and
                           EBT cards (access conflict). The audit also identified six
                           employees with multiple user IDs.

                    We met with FNS officials regarding EBT system access weaknesses.
                    FNS continued to believe that regulating down to the level of periodic
                    logon ID reviews was not necessary or appropriate. They instead
                    proposed to make system access reviews part of the Regional office
                    management evaluation process in order to validate that States are
                    appropriately controlling EBT system access.

Recommendation 1

                    Require the Regional offices to revise their management evaluations of
                    State EBT operations to include tests to determine if the States
                    periodically reviewed EBT system access to identify individuals who
                    no longer needed access, identify individuals with multiple user IDs,
USDA/OIG-AUDIT No. 27099-66-Hy                                                           Page 5
                    verify that the level of access granted was appropriate, and ensure that
                    exceptions noted are corrected.

                    Agency Response.

                    We accept the finding and have taken steps to act on it. In the past, the
                    FNS has issued management evaluation (ME) guidance to ensure that
                    State EBT systems for the Food Stamp Program are secure and do not
                    allow any of the above mentioned scenarios to occur. Although,
                    system security was not included as part of the 2006 ME review
                    elements, FNS has included it for 2007 as a result of this audit. FNS
                    will be monitoring States’ performance in this area.

                    OIG Position.

                    FNS officials informed us that the above described actions were
                    incorporated into the ME guidance in August 2006. We accept FNS’
                    management decision.




USDA/OIG-AUDIT No. 27099-66-Hy                                                              Page 6
Section 2. Controls to Safeguard EBT POS Equipment Need Strengthening


Finding 2           EBT has changed the way that FNS combats fraud in the FSP.
                    Because of the data available from the EBT system, there is an audit
                    trail of transactions which was not available in the paper system.
                    Using FSP transaction data from EBT systems, FNS successfully
                    developed and implemented an automated system, ALERT, to manage
                    the EBT data and assist in detecting fraud. In addition, FNS requires
                    State agencies to protect EBT POS equipment from theft and
                    unauthorized use and to establish computer hardware controls that
                    ensure acceptance of data from authorized terminals only.

                    However, unscrupulous retailers have fraudulently obtained new
                    equipment and/or illegally removed and used existing machines at
                    unauthorized locations. Retailers obtained the new equipment by
                    misrepresenting the need for replacement equipment. This occurred
                    because EBT POS equipment replacement procedures were inadequate
                    to prevent certain retailers from fraudulently obtaining additional
                    equipment. Also, States were not required to consider including, in
                    their Requests for Proposal (RFP) to acquire EBT systems, equipment
                    functionality and/or technological specifications that could prevent the
                    illegal removal and use of existing EBT POS equipment. As a result,
                    food stamp benefits are at risk of improper use.

                    EBT trafficking via POS devices has been identified as far back as
                    1996. About $395 million per year was diverted from food stamp
                    benefits by trafficking between 1999 and 2002 (the most recent data
                    available). From 1997 through the present, OIG Investigations
                    identified over $144 million in redemptions made by retailers under
                    investigation for EBT trafficking in the Chicago area alone. In
                    addition, the Chicago area investigations disclosed the first known
                    instances where retailers fraudulently obtained and/or illegally
                    removed and used the EBT POS devices. Specifically, OIG
                    Investigations identified the following in Chicago, Illinois:

                       •   A scheme whereby the subjects moved the authorized POS
                           device to different locations so they could exchange cash for
                           EBT benefits away from the authorized store. The individuals
                           involved were ordered to pay $29.1 million in restitution for
                           defrauding the FSP from the fall of 1997 through August 2001.

                       •   Thirty-one stores were collectively averaging $2 million per
                           month in trafficked benefits. OIG Investigations identified that
                           most, but not all, of these stores had cloned machines or

USDA/OIG-AUDIT No. 27099-66-Hy                                                             Page 7
                                                   duplicated machines obtained by misrepresenting the need for
                                                   replacement.

                                              •    Through search warrants, 17 working EBT POS devices were
                                                   recovered at 4 unauthorized EBT retailer locations.

                                              •    A store trafficked $1.1 million in EBT benefits after the retailer
                                                   shut down and boarded up the authorized location. The retailer
                                                   continued to illegally traffic EBT-FSP benefits by using the
                                                   POS device at an unauthorized location. 12

                                         FNS National office officials contended that OIG Investigations
                                         identified that the majority of EBT trafficking resulting from retailers
                                         fraudulently obtaining additional equipment and/or illegally removing
                                         and using existing POS devices remains localized in the Chicago,
                                         Illinois area. However, FNS and OIG agreed that this situation could
                                         occur anywhere in the country.

                                         FNS officials conceded that the only regulatory requirement for
                                         replacing EBT POS equipment is a time limit to replace the equipment
                                         within 48 hours. FNS agreed that a process should be developed and
                                         used during equipment replacement that would prevent retailers from
                                         fraudulently obtaining additional EBT POS equipment. FNS could
                                         require that the process be part of the State EBT contracts.

                                         During the course of fieldwork we suggested that at a minimum, the
                                         process should require a detailed explanation describing the need for
                                         replacement, proper identification of the device, and a visual
                                         inspection to determine if the equipment was tampered with in an
                                         effort to duplicate or clone the device. In addition, FNS proposed
                                         revising the existing procedure of assigning the replaced machine’s
                                         terminal ID to the new machine. FNS proposed that the EBT processor
                                         disable the replaced machine’s terminal ID and assign a new, unique
                                         terminal ID to the new machine.

                                         FNS officials felt that it would be unfair to the States to require them
                                         to implement, via the EBT regulations or contracts, potentially
                                         expensive technologies or equipment functionality that would prevent
                                         retailers from illegally removing and using existing EBT POS devices.
                                         They contended that unscrupulous retailers will eventually find ways
                                         to circumvent the new controls. In addition, the controls may not be
                                         cost beneficial at this time or appropriate for a State that does not have
                                         this problem. However, FNS agreed with our proposal that they

12
     When FNS shuts a store down the authorization ID is also shut down. In this instance the retailer boarded up the store and relocated to an
     unauthorized location and continued to traffic benefits.

USDA/OIG-AUDIT No. 27099-66-Hy                                                                                                                    Page 8
                    require requests for these technologies and equipment specifications in
                    the RFP process. This way, each time the State entered into a new
                    EBT contract, they would be required to obtain proposals and cost data
                    on the latest technologies and equipment, yet retain the option to
                    purchase only cost effective or otherwise acceptable options.

Recommendation 2

                    Require States to implement, via the EBT contract, a formal process
                    for use during EBT POS equipment replacement that would prevent
                    retailers from fraudulently obtaining equipment. At a minimum, the
                    process should require a detailed explanation describing the need for
                    replacement, proper identification of the device, assignment of unique
                    terminal IDs, and a visual inspection to determine if the equipment
                    was tampered with in an effort to duplicate or clone the device.

                    Agency Response

                    We agree with the finding and have taken steps to implement it. FNS
                    regulations at C.F.R. 274.12(h) (3) (ii) (A) require that FNS accept
                    transactions from authorized terminals only and that controls be in
                    place such as terminal identifiers, and user and retailer identification
                    codes. In order to ensure that States are complying with this regulatory
                    requirement, FNS recently began providing specific language
                    regarding POS device security for States to include in their RFP
                    solicitations of EBT vendors. The specific language emphasizes the
                    basic inventory procedures for EBT processors, which includes the
                    de-activation of any government supplied equipment reported lost,
                    stolen or in need of replacement as well as the assignment of unique
                    terminal numbers for all government supplied equipment.

                    OIG Position

                    FNS officials informed us that they implemented the above described
                    action in January 2006. We accept FNS’ management decision.

Recommendation 3

                    Require States to consider including in their RFP’s of EBT systems,
                    POS equipment functionality and/or technological specifications that
                    could prevent the illegal removal and unauthorized use of the devices.

                    Agency Response

                    As noted in Recommendation 2, FNS has begun working with States
                    during the RFP process to include specific language to strengthen the
USDA/OIG-AUDIT No. 27099-66-Hy                                                             Page 9
                    controls for POS device security. We will expand our efforts during
                    the RFP review and approval process to encourage States to solicit
                    methods for decreasing program fraud via the RFP. There are a variety
                    of technologies that are coming onto the market to improve the
                    security of electronic transactions; however, there may be cost and
                    implementation limitations with such technologies. FNS will continue
                    to monitor the effectiveness of new technologies and promote any
                    which are successful and feasible for States to implement.

                    OIG Position

                    To achieve management decision, FNS needs to provide the specific
                    actions they will engage in during the RFP review and approval
                    process to encourage States to solicit methods for decreasing program
                    fraud via the RFP and a date that these actions will be implemented.




USDA/OIG-AUDIT No. 27099-66-Hy                                                         Page 10
Scope and Methodology
                   Fieldwork was performed at the FNS National office in Alexandria,
                   Virginia, from October 2005, through February 2006. We audited FNS
                   National office oversight of FSP EBT since January 2001 when we
                   issued FNS EBT System National Office Oversight, Audit Report No.
                   27099-11-Hy.

                   We reviewed the following:

                      •   Prior audit recommendations (see Exhibit C);
                      •   Federal regulations, including changes since the January 2001
                          audit;
                      •   Pending benefit files obtained from JP Morgan EFS;
                      •   Regulation waivers;
                      •   FNS guidance related to the expungement of benefits;
                      •   Monitoring and communications between FNS and the States;
                      •   Security issues;
                      •   Status of implementation of EBT at farmer’s markets;
                      •   Other audits (see Exhibit B);
                      •   Status of FSP and WIC EBT implementation;
                      •   Methods of delivering EBT to farmer’s markets;
                      •   EBT waivers issued up to February 2006;
                      •   FSP and WIC EBT guidance issued since the previous
                          nationwide audit;
                      •   Safeguarding POS Equipment;
                      •   FSP EBT Report to Congress, issued 2003; and,
                      •   The Extent of Trafficking in the Food Stamp Program Report,
                          issued 2003

                   In addition, FNS provided us with a username and password to its EBT
                   Partner Website. We downloaded the four RFPs issued between 2003
                   and 2005 to analyze efforts to standardize RFP language, price
                   restructuring, and RFP restructuring. We also, downloaded the EBT
                   Director’s meeting notes to help us evaluate FNS’ efforts to improve
                   system security and provide communication with the States.

                   We reviewed all 291 current EBT waivers in FNS’ FSP waiver
                   database to determine if the waivers adversely affected EBT operations.
                   We compared these waivers to the pertinent Federal regulations.

                   During the audit, we contacted and/or attended meetings with the
                   following people to satisfy our audit objectives:

USDA/OIG-AUDIT No. 27099-66-Hy                                                          Page 11
                      •   FNS staff and officials;
                      •   OIG Audit and Investigations staff;
                      •   Other departmental OIG offices;
                      •   Department of Justice officials;
                      •   USDA Office of the General Counsel staff;
                      •   The Director for the Illinois Logistics Information Network
                          Program, EBT Unit

                   We attended a meeting held by FNS with EBT vendors and processors
                   to discuss EBT POS control issues.

                   The audit was performed in accordance with Generally Accepted
                   Government Auditing Standards.




USDA/OIG-AUDIT No. 27099-66-Hy                                                     Page 12
Exhibit A –       EBT Coalitions and Alliances
                  as of February 2006                        Exhibit A – Page 1 of 1

STATES NOT IN A COALITION OR ALLIANCE

                      PRIME
NAME                  CONTRACTOR STATES
    TWO-STATES
     COMBINED            JP Morgan EFS    ND, SD
    (1 PROJECT)
                         JP Morgan EFS    CA, IN, LA, MI, NE, NM, OH, SC, WI,
                                          VA, VI
                       Northrup Grumman   IL
  SINGLE STATES               ACS         OK, MS, IA, MA, ME
                             eFunds       OR, KS, MN, UT
                            GM Group      PR
                              Self        MT, TX, WY



COALITION AND ALLIANCE STATES

                       PRIME
NAME                   CONTRACTOR STATES
    NORTHEAST             JP Morgan EFS    CT, NH, NY, RI, VT,
   COALITION OF                           (NY also participates in Mid-Atlantic
   STATES (NCS)                           Coalition)
SOUTHERN ALLIANCE         JP Morgan EFS   FL, GA, KY, TN
  OF STATES (SAS)
                              ACS         AR
                             eFunds       AL, MO, NC
 WESTERN STATES           JP Morgan EFS   AK , AZ, CO, GU, HI, ID, NV, WA
EBT ALLIANCE (WSEA)
                          JP Morgan EFS   WV, DC, MD, PA
   MID-ATLANTIC               ACS         NJ
REGIONAL COALITION           eFunds       DE
      (MARC)

                       PRIME CONTRACTOR                NUMBER OF STATES
                       JP Morgan EFS                          34
                       eFunds                                  8
                       Self                                    3
                       ACS                                     7
                       Northrup Grumman                        1
                       GM Group                                1

USDA/OIG-AUDIT No. 27099-66-Hy                                                    Page 13
Exhibit B –        Prior OIG Audits
                                                           Exhibit B – Page 1 of 1

OIG Audits of State EBT Systems Since Prior Nationwide Audit

State                      Audit Number         Issuance Date
Washington                 27099-14-SF          April 2001
Washington D.C.            27099-13-Hy          June 2001
Hawaii                     27099-17-SF          September 2001
New York                   27099-16-Hy          December 2001
Michigan                   27099-23-Ch          July 2002
Arkansas                   27099-11-Te          September 2002
Texas                      27099-13-Te          June 2003
Nevada                     27099-22-SF          September 2003
New Mexico                 27099-18-Te          March 2004
New Jersey                 27099-65-Hy          May 2004




USDA/OIG-AUDIT No. 27099-66-Hy                                                  Page 14
Exhibit C – OIG Audit Recommendations
                                                                                         Exhibit C Page 1 of 6

         Prior Audit                            Reason for Follow-Up                     Recommendation
      Recommendations                                                                     Effective (Y/N)
FNS EBT National Office Oversight, Report No. 27099-11-Hy (January 2001)
No. 4 – Modify the time period, to OIG did not agree with FNS’ proposed action at                Yes
a maximum of 30 days, States and the time of report issuance (January 2001).
EBT processors have for making        Management decision was reached on
corrections to FSP data.              alternative corrective actions in March 2001.
                                      However, OIG has not performed audit work at
                                      an EBT processor since this report was issued.
No. 5 – Require State agencies to     FNS did not concur with this recommendation.        No – See Findings
periodically review system access     Instead FNS proposed writing individually to              and
to identify those individuals who     State EBT managers directing them to tighten        Recommendations
no longer have a need and             existing controls over EBT access. However,             Section 1
immediately delete their access.      OIG identified inadequate controls over EBT
                                      system access in subsequent audits.
EBT System State of New York, Report No. 27099-16-Hy (December 2001)
No. 6 – Direct the Office of          See No. 8 below.                                           Yes
Temporary and Disability
Assistance (OTDA) to better utilize
management reports in order to
more effectively monitor the EBT
system, especially the reports used
to detect potential improper
activity.
No. 8 - Direct OTDA to obtain         FNS’ responses to recommendations six and                  Yes
from Citicorp (now JP Morgan          eight indicated that final action was contingent
EFS) reports in an electronic data    on the pending development of the State Fraud
file format in order to more          and Abuse Reporting System, targeted for
effectively monitor potential         August 2002.
improper activity. These include
Monthly Manual Transaction and
ATM/POS Out-of-State Usage
reports.
No. 12 – Direct OTDA to develop       FNS’ response indicated final action was                   Yes
written procedures to reinstate FSP contingent on issuance of an administrative
benefits that are still available for directive scheduled for January 2002.
use.




    USDA/OIG-AUDIT No. 27099-66-Hy                                                                 Page 15
                                                                    Exhibit C Page 2 of 6


        Prior Audit                      Reason for Follow-Up                 Recommendation
     Recommendations                                                           Effective (Y/N)
Monitoring of EBT System in Michigan, Report No. 27099-23-Ch (August 2002)
No. 1 – Require the State agency to To determine final action taken.                Yes
develop controls that would ensure
that the information in the EBT
issuance system is reviewed and
supported before a client is allowed
access to their benefits.
No. 5 – Work with the State agency To determine final action taken.                 Yes
to develop a time-phased action
plan to document the purpose,
distribution, and description of how
the EBT management reports will
be used by each division to manage
the State agency’s EBT system.
No. 6 – Work with the State agency To determine final action taken.                 Yes
to develop a time-phased action
plan to ensure EBT client integrity.
EBT System Development of Arkansas, Report No. 27099-11-Te (September 2002)
No. 1 – Direct the Arkansas          To determine final action taken.               Yes
Department of Human Services
(ADHS) to establish controls that
require routine oversight of EBT
system activities. The controls
should include requirements for
periodic review of management
reports.
No. 2 – Direct ADHS to complete      To determine final action taken.               Yes
the appropriate reconciliations in
compliance with Federal
regulations.
No. 3 – Direct ADHS to establish     To determine final action taken.               Yes
controls to ensure that
reconciliation procedures and
FNS-46 procedures are current.




   USDA/OIG-AUDIT No. 27099-66-Hy                                                      Page 16
                                                                            Exhibit C Page 3 of 6


         Prior Audit                              Reason for Follow-Up           Recommendation
      Recommendations                                                             Effective (Y/N)
EBT System Development State of New Mexico, Report No. 27099-18-Te (March 2004)
No. 1 – Direct the State to           To determine final action taken.                    Yes
determine which of the current
authorizations needs to be removed
and researched, including the
$555,521 identified, and make the
appropriate accounting
adjustments.
No. 2 – Direct the State to establish To determine final action taken.                    Yes
written controls to ensure that
authorizations that do not have
EBT cards issued are timely (for
example, within 60 days) removed
from the pending file and
researched.

No. 3 – Direct the State, in             To determine final action taken.                 Yes
consultation with FNS, to analyze
the authorization process and
determine if authorizations need to
be sent to the processor before an
EBT card is issued to the client. If
so, modify the process before the
next EBT contract is finalized.
No. 4 – Take the necessary actions       To determine final action taken.                 Yes
to: (a) bill the State for $95,553 (or
the applicable amount) in overpaid
FSP fees from January 2002 to
May 2003, and determine if other
amounts need to be recovered for
invoices approved after May 2003;
and (b) establish written controls to
ensure that future invoices comply
with the approved fee schedule.




    USDA/OIG-AUDIT No. 27099-66-Hy                                                              Page 17
                                                                                Exhibit C Page 4 of 6


         Prior Audit                            Reason for Follow-Up                  Recommendation
      Recommendations                                                                  Effective (Y/N)
No. 7 – Direct the State to establish   Management Decision reached in September              Yes
written controls to ensure that:        2004, however, we had no evidence of final
                                        action as of January 2006. (recommendations
    7a – Help Desk functions            7a-7l)
    are monitored.

    7b – A complaint resolution
    process is established that
    includes time periods for
    resolution.

    7c – Access to unissued EBT
    cards is limited to the least
    number of personnel.

    7d – A review of controls over
    unissued cards is included in
    the management evaluations
    that are performed at county
    offices.

    7e – EBT activities at Group
    Living Arrangement facilities
    are monitored during facility
    reviews.

     7f – Service agreements with
    the EBT processor are not
    allowed to expire.

     7g – Dormant accounts are
    reviewed to determine if
    additional benefits should be
    added to the account.

     7h – Appropriate
    reconciliations are performed
    on a daily basis.



    USDA/OIG-AUDIT No. 27099-66-Hy                                                                  Page 18
                                                                           Exhibit C Page 5 of 6

         Prior Audit                              Reason for Follow-Up             Recommendation
      Recommendations                                                               Effective (Y/N)
    7i – Training of State and
    county office EBT staffs are
    completed.

    7j – Procedure manual is
    developed for monitoring State
    office EBT operations.

    7k – The processor monitors
    retailer compliance with
    signed agreements.

     7l – Proper access to stored
     FSP coupons is established.
No. 8 – Direct the State to establish   To determine final action taken.                    Yes
written internal controls that ensure
EBT corrective-action plan
milestones are met.
No. 9 – Review the State’s              To determine final action taken.                    Yes
schedule of planned internal audits
to determine if planned EBT audits
are appropriate, considering the
most recent A-133 Single Audit
findings.
No. 10 – Establish written internal     To determine final action taken.                    Yes
controls to ensure that: (a)
oversight of State EBT operations
is appropriate and (b) State A-133
Single Audit Reports are reviewed
at the appropriate levels of FNS
management.




    USDA/OIG-AUDIT No. 27099-66-Hy                                                            Page 19
                                                                      Exhibit C Page 6 of 6



        Prior Audit                      Reason for Follow-Up                Recommendation
     Recommendations                                                          Effective (Y/N)
EBT System Development State of New Jersey, Report No. 27099-65-Hy (May 2004)
No. 2 – Encourage the State agency The implementation date for New Jersey’s           Yes
to charge a fee when issuing         EBT replacement card fee as provided in
excessive replacement cards to       their July 21, 2004 request for management
reduce the number of replacement     decision was no longer valid because of a
cards issued, and lessen             contract award delay. Management decision
administrative costs incurred by the was reached in November 2004. The eFunds
State and charged to the Federal     to ACS database conversion was scheduled
Government.                          for July 2005.




   USDA/OIG-AUDIT No. 27099-66-Hy                                                        Page 20
Exhibit D – Agency Response
                                   Exhibit D Page 1 of 2




  USDA/OIG-AUDIT No. 27099-66-Hy                 Page 21
                                 Exhibit D Page 2 of 2




USDA/OIG-AUDIT No. 27099-66-Hy                      Page 22
Glossary of Terms

Anti-Fraud Locator using EBT Retailer Transactions (ALERT) – A system that enables USDA
to identify patterns of non-compliance with FSP regulations and law evident from the electronic
record of transactions that occur when people use their benefits.

Coalition/Alliance – Formed by States to establish uniform operating rules and guidelines for
EBT to ensure interoperability.

Expungement Process – The State agency shall expunge (erase or strike out) benefits that have
not been assessed by the household after a period of one year. Issuance reports shall reflect the
adjustment to the State agency issuance totals to comply with monthly issuance reporting
requirements.

Farmer’s Markets – An open-air marketplace for farm products.

Prime Contractor – All EBT contracts are negotiated between a State and the prime contractor
responsible for all aspects of performance of the contract, although prime contractors frequently
use other firms as subcontractors for one or more of the various components of the contract
requirements.

Terminal ID – A unique identifier that distinguishes one POS device from another.

Waiver – Intentional relinquishment of a right, claim, or privilege. FNS has the authority to
approve requests from State agencies for waivers of regulatory requirements.




USDA/OIG-AUDIT No. 27099-66-Hy                                                                 Page 23
